OIG Audit Report GR-90-06-002

Office of Justice Programs Grant Awarded to
Beyond Missing, Incorporated
Sausalito, California

Audit Report GR-90-06-002


March 2006
Office of the Inspector General


Executive Summary





The Office of the Inspector General, Audit Division, has completed an audit of the Beyond Missing Internet Poster Distribution Project, awarded by the U.S. Department of Justice, Office of Justice Programs (OJP) to Beyond Missing, Incorporated (BMI), headquartered in Sausalito, California.  The purpose of this grant is to aid in the recovery of abducted and missing children by providing high speed, cost-effective communications tools to law enforcement and the communities they serve.  OJP awarded BMI a total of $846,000 under grant 2002-DD-BX-K003, with a start date of May 1, 2002, and an end date of April 30, 2005.

We tested BMIs accounting records to determine if reimbursements claimed for costs under the grant were allowable, supported, and in accordance with applicable laws, regulations, guidelines, and terms and conditions of the grant.

Of the $781,503 expended as of November 30, 2004, we tested transactions totaling $159,521 and found that BMI generally complied with grant requirements, except for the following instances:1

Personnel costs for four employees totaling $13,551 were not adequately supported,

	Expenditures for miscellaneous costs totaling $501 were found not to be grant-related,

	BMI drew down federal funds in excess of expenditures that resulted in a balance that cost the federal government imputed interest totaling $3,517, and

	Nine Financial Status Reports submitted by the grantee to OJP were inaccurate when compared to BMIs accounting records.

As a result, we question $17,569 and discuss these issues in detail in the Findings and Recommendations section of the report.  Our audit objectives, scope, and methodology appear in Appendix II.

We discussed the results of our audit with BMI officials.  In addition, we provided the grantee and OJP with a draft of our report and have requested formal responses, which were appended to this report.
   



Footnotes

The Inspector General Act of 1978, as amended, contains our reporting requirements for questioned costs.  However, not all findings are dollar-related.  See Appendix I for a breakdown of our dollar-related findings and for definitions of questioned costs.